No:
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
JEAN DENIS PAUL,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
DECLARATION VERIFYING TIMELY FILING
Petitioner, Jean Denis Paul, through undersigned counsel and pursuant to
SUP. CT. R. 29.2 and 28 U.S.C. ยง 1746, declares that the Petition for Writ of Certiorari
filed in the above-styled matter was placed in an envelope via third party commercial
carrier for delivery within three days, addressed to the Clerk of the Supreme Court
of the United States, on the 2nd day of February, 2021, which is timely pursuant to
the rules of this Court.
MICHAEL CARUSO
Federal Public Defender
Fort Lauderdale, Florida
February 2, 2021

By:

s/Bernardo Lopez______________________
Bernardo Lopez
Assistant Federal Public Defender
One East Broward Boulevard, Suite 1100
Fort Lauderdale, Florida 33301-1842
Telephone No. (954) 356-7436

